102A

Credit Card Disclosures Pricing Information Table

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

26.99%

This APR will vary with the market based on the Prime Rate.

9.99%

for select purchases eligible for a Major Purchase Plan.1

APR for Balance Transfers

26.99%2 for balance transfers completed within 4 months from date of account opening.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

29.99%3

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance (minus any excluded balance, plus
any separately required payment on an excluded balance) by the due date each month.4
We will begin charging interest on cash advances and balance transfers on the transaction
date. We will begin charging interest on a Major Purchase Plan balance at the start of the
billing cycle following the billing cycle in which the Major Purchase Plan Purchase was made.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

None.

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Purchase
Transaction

Either $10 or 5% of the amount of each transfer, whichever is greater.
Either $10 or 5% of the amount of each cash advance, whichever is greater.
3% of each transaction in US dollars.

Penalty Fees
• Late Payment

Up to $40

The store website will identify which purchases are eligible for the Major Purchase Plan.
Balance transfers are made available at our discretion. To make a balance transfer call us at the number on the back of
your card.
3
Please note cash advances are available only to the extent of your cash advance limit. Your cash advance limit may be
as low as $0; it is a portion of your credit limit.
4
See your Card Agreement for details on excluded balances and how they affect your grace period.
1
2

Details About Your Interest Rates

Periodic Rate
as of 9/1/20

For variable rates:
U.S. Prime Rate Plus the following “Margin”:

Purchases

0.07394% (D)

23.74%

Major Purchase Plan

0.02736% (D)

N/A

Balance Transfers

0.07394% (D)

23.74%

Cash Advances

0.08216% (D)

N/A

(D) = Daily periodic rate. A daily periodic rate is the APR divided by 365.

